=
I

COCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
RAVNEET SINGH
Petitioner,

ve
UNITED STATES OF AMERICA
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 28th day of October, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

TODD W. BURNS HAROLD J. KRENT
BURNS & COHAN, UT CHICAGO-KENT
ATTORNEYS AT LAW, COLLEGE OF LAW
1350 Columbia Street, 565 West Adams Street
Suite 600 Chicago, Illinois 60661
San Diego, California 92101 (312) 906-5010
(619) 236-024 hkrent@kentlaw.iit.edu
Co-Counsel for Counsel of record for

Ravneet Singh Ravneet Singh

Subscribed and sworn to before me this 28th day of October, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

erento CO bile Qudaew- bh, Glob

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38922
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
